Memorandum from the Office of the Inspector General



July 31, 2007

E. Wayne Robertson, SP 5A-C

REQUEST FOR FINAL ACTION – AUDIT 2007-008T – PRIVACY PROTECTION –
TVA USE OF INFORMATION IN IDENTIFIABLE FORM



Attached is the subject final report for your review and final action. Your written
comments, which addressed your management decision and actions planned or taken,
have been included in the report. Please notify us when final action is complete.

If you have any questions, please contact Sylvia J. Whitehouse, Senior Auditor, at
(865) 632-2640 or Jill M. Matthews, Director, Information Technology Audits, at
(865) 632-4730. We appreciate the courtesy and cooperation received from your staff
during the audit.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

SJW:SDB
Attachment
cc (Attachment):
      Steven A. Anderson, SP 5A-C
      R. Clay Eckles, CTR 1P-M
      Frank A. Foster, OCP 2C-NST
      Nicholas P. Goschy, Jr., WT 6A-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      Stacie A. Martin, MP 3C-C
      Janice W. McAllister, EB 7A-C
      Richard W. Moore, ET 4C-K
      Mary E. Ragland, EB 5B-C
      Edward C. Ricklefs, EB 5B-C
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2007-008T
Office of the Inspector General   Audit Report
                                   To the Vice President,
                                   Information Services




PRIVACY PROTECTION -
TVA'S USE OF INFORMATION
IN IDENTIFIABLE FORM




Audit Team                                  Audit 2007-008T
Sylvia J. Whitehouse                           July 31, 2007
Sarah E. Huffman
Office of the Inspector General                                                                 Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY.......................................................................... i

BACKGROUND ......................................................................................... 1

OBJECTIVES, SCOPE, AND METHODOLOGY ............................... 1

FINDINGS ................................................................................................... 2

   PRIVACY REPORT COMPLETENESS..................................................... 3

   CONSISTENCY WITH FEDERAL REQUIREMENTS ............................... 4

   PRIVACY PROGRAM EFFECTIVENESS ................................................. 4

   CONSISTENCY OF PRACTICES WITH PROCEDURES ......................... 5

RECOMMENDATIONS ........................................................................... 6


APPENDIX
MEMORANDUM DATED JULY 30, 2007, FROM E. WAYNE ROBERTSON
TO BEN R. WAGNER




Audit 2007-008T
Office of the Inspector General                                                                  Audit Report


EXECUTIVE SUMMARY
As part of our annual audit plan, we performed an audit of the Tennessee
Valley Authority (TVA) privacy program, policies, procedures governing use
of information in identifiable form (IIF),i and privacy protection practices.
The audit objectives were to determine if TVA's (1) Information Services
Privacy Program Summary Report (Privacy Summary Report) on privacy
policies and procedures and use of IIF was accurate and complete,
(2) policies and procedures were consistent with federal privacy requirements,
(3) privacy program was designed effectively to accomplish its objectives, and
(4) privacy-related practices complied with policies and procedures.

We identified three areas where TVA's Privacy Summary Report to the Office
of the Inspector General (OIG) needed improvement. In addition, we found:

x       TVA's privacy policies and procedures were generally consistent with
        federal requirements. However, we noted five areas where we believe
        additional guidance is needed. We further noted TVA is in the process
        of updating its privacy policies and procedures.
x       While TVA has made progress in implementing privacy program
        components, a focused effort is needed to strengthen the program in
        the following two areas: (1) complete implementation of planned privacy
        assessments of all systemsii identified with IIF, and (2) ensure privacy
        activities are better integrated between TVA groups who have privacy
        responsibilities.
x       TVA needs to improve its privacy practices through (1) reviews and
        updates of Privacy Act Systems of Recordsiii notices and
        (2) implementation of best practices on systems with IIF.

At the end of our fieldwork on March 8, 2007, our review had not identified
any significant IIF compromises reported to the OIG for the two-year period
ending December 6, 2006, and no instances of criminal or civil liability
relating to loss of personal information were reported by the Office of the
General Counsel (OGC). On March 20, 2007, we issued a draft report to
management for comment. During the comment period, an issue came to
our attention regarding placement of IIF or other sensitive information on
temporary share drives. As a result, we withdrew the original draft report
until we could perform an audit to determine the extent of exposure of IIF.


i
      Information in identifiable form (IIF) – Defined as any representation of information that permits the
      identity of an individual to whom the information applies to be reasonably inferred by either direct or
      indirect means, consistent with Public Law 107–347, the E-Government Act of 2002.
ii
      The term "systems" as used in this report includes major applications, minor applications, and
      general support systems.
iii
      The term "Systems of Records" as used in this report refers to Privacy Act defined Systems of
      Records and includes all forms of records, not just records contained in information technology
      systems.
Audit 2007-008T                                                                                         Page i
Office of the Inspector General                                    Audit Report


Audit 2007-10997, Review of Temporary Shares for Sensitive Information,
identified 32 incidents of IIF on temporary shares which were not properly
secured and could have been accessed by anyone with a TVA network
account. As noted in the report, we could not determine if the IIF had been
inappropriately accessed since there is no usage tracking available for
temporary shares. Weaknesses in any privacy program can lead to potential
legal liabilities and reputation damage.

We recommend the Senior Vice President, Information Services, take actions
to improve TVA's privacy program and address the identified weaknesses.
Recommendations for Audit 2007-10997 are included in that report.

TVA management agreed with our recommendations and proposed actions
to implement program improvements (see the Appendix for the complete
response). TVA management plans to complete corrective actions by the
end of fiscal year 2007, except for recommendation 7, which is scheduled for
completion at the end of fiscal year 2008. We concur with TVA
management’s proposed actions.




Audit 2007-008T                                                          Page ii
Office of the Inspector General                                                                Audit Report


BACKGROUND
The Consolidated Appropriations Act of 2005 (the Act) was enacted in
December 2004. Along with changing Tennessee Valley Authority (TVA)
management structure, the Act contained a provision regarding privacy
protection. Specifically, §522 of the Act required (1) a Chief Privacy Officer
be designated to assume primary responsibility for privacy and data
protection policy; (2) comprehensive privacy and data protection procedures
be established and implemented; (3) the agency to report to the Inspector
General on its use of information in identifiable form (IIF)1 and its privacy and
data protection policies and procedures; and (4) an independent review of
the agency's use of IIF at least every two years.

While the applicability of §522 of the Act to TVA is not clear, TVA actions
consistent with the Act and guidance issued by the Office of Management
and Budget (OMB) included (1) naming the Information Services (IS) Senior
Vice President as TVA's Senior Agency Official for Privacy (SAOP) in
October 2005 and (2) submitting a IS Privacy Program Summary Report
(Privacy Summary Report) to the Inspector General in September 2006. The
Office of the Inspector General (OIG) conducted this audit as the
independent review of TVA's use of IIF.

TVA's SAOP is responsible for agency-wide information privacy issues and
protections and for ensuring compliance with applicable federal laws,
regulations, and policies. TVA has information in identifiable form from
employees, retirees, contractors, business partners, and the public.


OBJECTIVES, SCOPE, AND METHODOLOGY
This audit, which was included in our annual audit plan, evaluated TVA's
use of IIF relating to TVA employees and the public and determined the:

a. Extent to which the Privacy Summary Report is accurate and accounts for
   TVA's current technologies, information processing, and all areas
   consistent with the Act;
b. Consistency of TVA's privacy policies and procedures with applicable
   laws and regulations;
c. Effectiveness of TVA's privacy program and data protection procedures
   governing the collection, use, sharing, disclosure, transfer, and security
   of IIF; and


1
    Information in identifiable form (IIF) – Defined as any representation of information that permits the
    identity of an individual to whom the information applies to be reasonably inferred by either direct or
    indirect means, consistent with Public Law 107–347, the E-Government Act of 2002.

Audit 2007-008T                                                                                     Page 1
Office of the Inspector General                                       Audit Report


d. Compliance of actual privacy and data collection practices with TVA's
   privacy procedures.

In order to meet audit objectives, we completed the following fieldwork during
January and February 2007:

x   Compared TVA privacy policies and procedures with federal privacy
    requirements from the Privacy Act of 1974, privacy provisions of the
    E-Government Act of 2002, and OMB implementing guides;
x   Discussed privacy-related activities with staff members in several TVA
    groups, including IS IT Security, IS Document and Records Management,
    Communications, Procurement, the Office of the General Counsel (OGC),
    and the OIG;
x   Evaluated TVA privacy-related reports and privacy program management
    practices;
x   Reviewed TVA public and internal Web sites for privacy-related
    information;
x   Reviewed the IS listing of privacy policies and procedures for
    completeness and to identify specific measures for privacy protection;
x   Reviewed OIG investigative records to identify complaints concerning
    loss of personal information;
x   Evaluated records management practices for compliance with federal
    privacy requirements;
x   Compared the IS baseline of significant systems with IIF to the systems
    inventory to determine whether additional systems warrant inclusion for
    protecting IIF;
x   Reviewed privacy protection practices and identified privacy statements
    for a sample of systems with IIF to identify best practices in place at TVA;
    and
x   Identified use of continuous auditing in significant systems with IIF and
    methods used to mitigate risks of inadvertent release of IIF from TVA
    Web sites.

We conducted this audit in accordance with generally accepted Government
Auditing Standards.


FINDINGS
In summary, we determined:

x   TVA's Privacy Summary Report to the OIG needed improvement in
    three areas.
Audit 2007-008T                                                            Page 2
Office of the Inspector General                                                             Audit Report


x     TVA's privacy policies and procedures were generally consistent with
      federal requirements. However, we noted: (1) five areas where we
      believe further guidance is needed, and (2) TVA is in the process of
      updating its privacy policies and procedures.
x     While TVA has made progress in implementing privacy program
      components, a focused effort is needed to strengthen the program in
      the following two areas: (1) complete implementation of planned privacy
      assessments of all systems2 identified with IIF, and (2) ensure privacy
      activities are better integrated between TVA groups who have privacy
      responsibilities.
x     TVA needs to improve its privacy practices through (1) reviews and
      updates of Systems of Records3 notices and (2) implementation of best
      practices on systems with IIF.

At the completion of our fieldwork on March 8, 2007, our review indicated
there were no significant IIF compromises reported to the OIG for the two-
year period ending December 6, 2006, and no instances of criminal or civil
liability relating to loss of personal information were reported by the OGC.
However, as discussed further below, an issue came to our attention
subsequent to our review indicating IIF was available on temporary share
drives to anyone with a TVA network account. Weaknesses in a privacy
program could result in compromise of private information, which may lead
to potential legal liabilities and reputation damage.

PRIVACY REPORT COMPLETENESS
In the September 2006 Privacy Summary Report to the OIG, IS provided a
list of 60 privacy and data protection policies and procedures. In a separate
document, IS identified 50 significant systems with IIF making up the TVA
baseline. The Privacy Summary Report could be improved by including:

x     Four areas related to privacy protection policies and procedures that
      were not included in the Summary Report: oversight by the IT Security
      Executive Committee, Acceptable Use Requirements for the TVA
      Corporate Network, the new IS procedure on Privacy Impact
      Assessments, and TVA's Systems of Records.
x     Three systems related to electronic deposits, personnel records, and
      contractor personnel that IS confirmed contained IIF but were not



2
    The term “systems” as used in this report includes major applications, minor applications, and
    general support systems.
3
    The term "Systems of Records" as used in this report refers to Privacy Act defined Systems of
    Records and includes all forms of records, not just records contained in information technology
    systems.

Audit 2007-008T                                                                                      Page 3
Office of the Inspector General                                      Audit Report


    considered in developing the system baseline. During our audit, IS
    agreed to include the three systems in plans for privacy assessments.
x   Current technologies to be used in protecting or transmitting IIF. Projects
    to implement encryption on desktops and servers and access controls
    using smart card technology were either in progress or in planning stages.

CONSISTENCY WITH FEDERAL REQUIREMENTS

TVA and IS privacy and data protection policies and procedures that we
evaluated were consistent with the majority of federal requirements.
However, we believe further or more explicit guidance, based on Privacy Act
requirements and OMB guidelines, is needed in the following areas:
(1) identifying contracts subject to privacy requirements; (2) requiring machine-
readable privacy policies on contractor-hosted Web sites; (3) maintaining the
minimal information about individuals necessary to accomplish agency
purposes; (4) prohibited disclosure practices, such as selling or renting names
and addresses; and (5) processes for notifying individuals of pending releases.
IS reported revisions were being reviewed to incorporate privacy components
in two TVA-wide policies and three procedures.

PRIVACY PROGRAM EFFECTIVENESS

While TVA has made progress in implementing privacy program
components, a focused effort is needed to strengthen the program in the
following two areas: (1) completion of all planned privacy assessments of
systems with IIF and (2) better integration between TVA groups who have
privacy responsibilities.

Since naming TVA's SAOP, IS has made progress in implementing planned
privacy program components. Notable accomplishments include
implementing privacy training as part of TVA's annual required security
awareness and training program, establishing methodologies for identifying
and assessing systems with IIF, and initiating security categorizations of
information systems. IS completed TVA's first privacy assessment in
September 2006. Continued progress is needed to ensure TVA's privacy
program completes the implementation necessary for achieving optimal
systems protections. More specifically, completing privacy assessments
of systems with IIF will be required for TVA to identify best practices and
implement the measures necessary to adequately protect such systems and
the data they contain. During our audit, we were provided a tentative schedule
for completing the assessments of 53 systems during fiscal year 2007.

Although we found some coordination between groups handling TVA's
privacy responsibilities, that coordination needs to be improved. Activities
related to privacy protection and compliance with privacy requirements
include: managing and safeguarding information systems; records
Audit 2007-008T                                                           Page 4
Office of the Inspector General                                       Audit Report


management; exemptions to releases of information under the Freedom of
Information Act; contracting actions; training all personnel; handling and
tracking legal actions; and investigating privacy-related allegations such
as identity theft. These functions are managed in different TVA groups,
including IS Architecture, Planning, & Compliance; Communications;
Human Resources; Procurement; TVA Police; Nuclear Security; the OGC;
and the OIG. However, we did not find privacy-related responsibilities clearly
documented for all areas, and an integrated view of TVA privacy efforts
describing the relationships between the groups performing privacy
protection functions did not exist. An effective privacy program will also
clearly communicate responsibilities of security officers, systems owners,
records liaisons, and all personnel to help ensure systems are adequately
protected and compliance is consistently met over time.

We reviewed allegations reported to the OIG in the last two years and
identified no significant IIF compromises as of December 6, 2006.
In addition, we determined no instances of criminal or civil liability relating
to loss of personal information were reported by the OGC. However,
subsequent to our draft report dated March 20, 2007, an issue came to our
attention regarding placement of IIF or other sensitive information on
temporary share drives. We withdrew the draft report pending an audit of
this issue to determine the extent of exposure. Audit 2007-10997, Review
of Temporary Shares for Sensitive Information, identified 32 incidents of IIF
on temporary shares which were not properly secured and could have been
accessed by anyone with a TVA network account. As noted in that report,
we could not determine if the IIF had been inappropriately accessed since
there is no usage tracking available for temporary shares.

CONSISTENCY OF PRACTICES WITH PROCEDURES
TVA needs to improve the consistency of privacy practices with procedures
through (1) reviews and updates of Systems of Records notices and
(2) implementation of best practices on systems with IIF. We found
IS submitted required reports on privacy, matching programs, and altered
Systems of Records. In addition, we identified practices in place for
protecting sensitive printed and electronic documents, including documents
containing IIF, submitted for processing in TVA's file management system.
Although we did not perform an in-depth review of these practices, we found
no significant concerns relating to document management in TVA’s file
management system.

We found IS had not updated the Systems of Records notices since 1999,
although a revision in routine uses was published in 2003. We further found
IS had not conducted reviews of TVA Systems of Records notices to ensure
their accuracy or reviews of routine use disclosures and exemptions


Audit 2007-008T                                                            Page 5
Office of the Inspector General                                                          Audit Report


consistent with OMB guidance.4 We believe as a best practice such reviews
should be conducted periodically, and the systems notices should be
updated. We did not attempt to determine whether any new or revised
Systems of Records are required for TVA information systems because
IS' planned assessments will include this determination.

Based on our review of systems best practices, we determined additional
measures may be warranted on internal systems accessible to general TVA
users. All tested systems containing IIF restricted user access, but other
protection measures were not consistently in place. Approximately one-half
of the systems we tested provided a privacy notice when either general or
privileged users logged on to the system. Although we found no specific
requirement for posting privacy notices in internal systems, implementation
is generally a low-cost solution to help remind users the system contains
private information and requires special protection. Other protection
measures, including monitoring transactions, reviewing activity logs, and
continuous auditing techniques, were present in some systems but not widely
used. None of the tested systems had implemented encryption technologies,
although we noted TVA's encryption project is in progress.


RECOMMENDATIONS
We recommend the Senior Vice President (SVP), IS, consider the following
program improvements:

1. Ensure future privacy reports to the OIG include all privacy protection
   policies and procedures and current technologies to be used in protecting
   or transmitting IIF.
2. Complete revisions of policies and procedures, including addressing
   areas identified in this report and clearly identifying privacy-related
   responsibilities.
3. Complete all planned privacy assessments of systems with IIF.
4. Enhance integration of privacy compliance and protection efforts managed
   among TVA groups to ensure activities are adequately coordinated.
5. Update TVA's Systems of Records to include revisions and ensure
   descriptions are accurate.
6. Conduct and document periodic reviews of TVA's Systems of Records.



4
    Appendix I to OMB Circular A-130, Federal Agency Responsibilities for Maintaining Records About
    Individuals, states Systems of Records should be reviewed every two years to ensure accuracy, and
    reviews of routine use disclosures and exemptions should take place every four years to ensure
    reported uses are compatible with agency purposes and exemptions are still needed.

Audit 2007-008T                                                                               Page 6
Office of the Inspector General                                     Audit Report


7. Implement privacy notices on all internal systems with IIF accessible to
   general users from the TVA corporate network and consider
   implementing other measures as appropriate to protect systems with IIF.
Recommendations for Audit 2007-10997 are included in that report.

Management’s Response – The SVP, IS, agreed with our
recommendations and proposed actions to implement program
improvements (see the Appendix for the complete response). IS plans to
complete corrective actions by the end of fiscal year 2007, except for
recommendation number 7, which is scheduled for completion at the end of
fiscal year 2008.

Auditor’s Response – We concur with TVA management’s proposed
actions.




Audit 2007-008T                                                          Page 7
APPENDIX
Page 1 of 2
APPENDIX
Page 2 of 2
